U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 22, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Patrick Emanuel Sutherland v. United States, No. 19-433
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 30,
2019. The government's response is now due, after one extension, on December 2, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 2, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0433
SUTHERLAND, PATRICK EMANUEL
USA

BARRY J. POLLACK
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, NW
WASHINGTON, DC 20006
202-775-4500
BPOLLACK@ROBBNSRUSSELL.COM

